TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2013 Statutory Review
                       of Compliance With Legal Guidelines
                               When Issuing Levies



                                         August 20, 2013

                              Reference Number: 2013-30-092




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


FISCAL YEAR 2013 STATUTORY                             In addition, TIGTA reviewed 27 systemically
REVIEW OF COMPLIANCE WITH LEGAL                        generated and 18 manual levies identified
GUIDELINES WHEN ISSUING LEVIES                         through the Integrated Collection System and
                                                       determined that taxpayers were given notice of
                                                       their appeal rights at least 30 calendar days
Highlights                                             prior to issuance of the levies. However, three
                                                       systemic levies had additional tax assessments
                                                       in which a new notice of intent to levy was not
Final Report issued on August 20, 2013
                                                       sent prior to issuing the levies, as required.
Highlights of Reference Number: 2013-30-092            WHAT TIGTA RECOMMENDED
to the Internal Revenue Service Commissioner
for the Small Business/Self-Employed Division.         TIGTA recommended that the IRS determine the
                                                       feasibility of updating the systemic Integrated
IMPACT ON TAXPAYERS                                    Collection System programming to prevent
                                                       levies from being issued on modules in which a
When taxpayers do not pay delinquent taxes,
                                                       new notice of intent to levy has not been sent
the IRS has the authority to work directly with
                                                       after there has been an additional assessment.
financial institutions and other third parties to
seize taxpayers’ assets. This action is                IRS officials agreed with the recommendation.
commonly referred to as a “levy.”                      The IRS plans to continue to implement a
                                                       change to the Integrated Collection System
The IRS Restructuring and Reform Act of 1998
                                                       programming for systemic levies to prevent levy
requires the IRS to notify taxpayers of the intent
                                                       issuance on modules where an additional
to levy at least 30 calendar days before initiating
                                                       assessment has been made and a new Notice
any levy action to give taxpayers an opportunity
                                                       of Intent to Levy/Notice of a Right to a Hearing
to formally appeal the proposed levy.
                                                       has not been sent to the taxpayer.
Taxpayers’ rights are potentially violated if they
are not notified within the 30-day period and a
levy is issued.
WHY TIGTA DID THE AUDIT
This audit was initiated because TIGTA is
responsible for annually determining whether
the IRS complied with the IRS Restructuring
and Reform Act of 1998 requirement to notify
taxpayers prior to issuing levies. This is the
fifteenth audit report on this subject area. The
overall objective of this review was to determine
whether the IRS has complied with 26 United
States Code Section 6330, Notice and
Opportunity for Hearing Before Levy.
WHAT TIGTA FOUND
The IRS is protecting most taxpayers’ rights
when issuing systemically generated and
manually prepared levies. TIGTA reviewed
15 systemically generated and 30 manual levies
identified through the Automated Collection
System and determined that controls were
effective to ensure that taxpayers were given
notice of their appeal rights at least 30 calendar
days prior to the issuance of the levies.
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 20, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2013 Statutory Review of Compliance
                               With Legal Guidelines When Issuing Levies (Audit # 201330003)

 This report presents the results of our review to determine whether the Internal Revenue Service
 has complied with 26 United States Code Section (§) 6330, Notice and Opportunity for Hearing
 Before Levy.1 This audit is statutorily required in each fiscal year and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. If you have any questions, please contact me or Augusta R. Cook,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).




 1
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
 Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
 of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
                                     Fiscal Year 2013 Statutory Review of
                             Compliance With Legal Guidelines When Issuing Levies




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Levies Issued by the Automated Collection System Function
          Complied With Notification Requirements .................................................. Page 3
          Most Levies Issued by the Collection Field Function Complied
          With Notification Requirements ................................................................... Page 4
                    Recommendation 1:.......................................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measure ................................................................ Page 12
          Appendix V – Example of Levy (Form 668-A)............................................ Page 13
          Appendix VI – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 14
          Appendix VII – Management’s Response to the Draft Report ..................... Page 16
                 Fiscal Year 2013 Statutory Review of
         Compliance With Legal Guidelines When Issuing Levies




                    Abbreviations

IRS           Internal Revenue Service
TIGTA         Treasury Inspector General for Tax Administration
U.S.C.        United States Code
                                 Fiscal Year 2013 Statutory Review of
                         Compliance With Legal Guidelines When Issuing Levies




                                            Background

When taxpayers do not pay delinquent taxes, the Internal Revenue Service (IRS) has the
authority to work directly with financial institutions and
other third parties to seize taxpayers’ assets. This action
is commonly referred to as a “levy” (see Appendix V for        The Treasury Inspector General
                                                                   for Tax Administration is
an example of a Levy (Form 668-A)). The IRS                       required    to annually verify
Restructuring and Reform Act of 19981 created the               whether the IRS is complying
provisions of 26 United States Code (U.S.C.)                   with the IRS Restructuring and
                  2
Section (§) 6330 that requires the IRS to notify the           Reform    Act of 1998 requirement
taxpayer of the intention to levy at least 30 calendar days      to  notify  the taxpayer of the
                                                                      intent to levy at least
before initiating a levy action to give the taxpayer an             30 calendar days before
opportunity to formally appeal the proposed levy.                    initiating a levy action.
Generally, only one notice of intent to levy is required
per tax period. However, a new notice is required when
an additional tax assessment occurs after the original notice of intent to levy has been sent to the
taxpayer and the additional tax assessment will be included in the levy.
The IRS Restructuring and Reform Act of 1998 also requires the Treasury Inspector General for
Tax Administration (TIGTA) to annually verify whether the IRS is complying with the
provisions of the Act. This is the fifteenth year in which we have evaluated the controls over
levies. While levies can be issued for monetary or physical assets, this report specifically
addresses levies of taxpayers’ monetary assets.
To collect delinquent taxes, levies are issued either systemically or manually by two operations
within the IRS:
       The Automated Collection System, through which customer service representatives
        contact delinquent taxpayers by telephone to collect unpaid taxes and secure tax returns.
       The Collection Field function, where revenue officers contact delinquent taxpayers in
        person. Delinquent cases assigned to revenue officers in the field offices are controlled
        and monitored with the automated Integrated Collection System.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
                                                                                                           Page 1
                                    Fiscal Year 2013 Statutory Review of
                            Compliance With Legal Guidelines When Issuing Levies



Previous TIGTA audit reports3 have recognized that the IRS has improved controls over the
issuance of systemically generated levies, primarily due to the development of these systemic
controls in both the Automated Collection System and the Integrated Collection System. In prior
years, we determined that the Automated Collection System and Integrated Collection System
systemic controls were effective. During tests, IRS employees were asked to make attempts to
prematurely issue levies. Neither system allowed the employees to issue a levy less than 30 days
after the notice request date. Also, both systems generated a warning each time an employee
attempted to levy taxpayer property after the 30-day legal waiting period had passed but before
the IRS 45-day guideline had expired.
There is a higher risk when revenue officers issue manual levies because they request these
levies outside of the systemic controls that exist and not all manual levies receive managerial
approval. Because the Integrated Collection System is not generating the manual levies, we
cannot be assured that there is a complete automated trail for these levies. Therefore, it is
impossible to reliably determine the exact number of manual levies issued by revenue officers
during our review period.
TIGTA audit reports issued prior to Fiscal Year 2005 reported that additional controls were
needed over manual levies issued by revenue officers; however, since our Fiscal Year 2005
report, we have reported that revenue officers properly notified taxpayers of their right to a
hearing when issuing manual levies. Nevertheless, TIGTA still considers manual levies to be
high risk and will continue to thoroughly test them.
This review was performed at the Small Business/Self-Employed Division National
Headquarters Collection function office in New Carrollton, Maryland, during the period
February through April 2013. This performance audit was conducted in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




3
    See Appendix VI for a list of previous audit reports related to this review.

                                                                                            Page 2
                                    Fiscal Year 2013 Statutory Review of
                            Compliance With Legal Guidelines When Issuing Levies




                                         Results of Review

Levies Issued by the Automated Collection System Function
Complied With Notification Requirements
Our review of systemically generated and manually issued levies in the Automated Collection
System function showed that taxpayers’ rights were protected. Controls are in place and
effectively ensure that the IRS gives taxpayers notice of
their appeal rights for at least 30 calendar days prior to
the issuance of the levies.                                   Taxpayers were given notice
                                                                                of their appeal rights when
The first step in the collection process involves mailing       systemically generated and
taxpayers a series of notices asking for payment of            manual levies were issued by
delinquent taxes. If taxpayers do not comply, the                the Automated Collection
                                                                      System function.
majority of the accounts are forwarded to an Automated
Collection System Call Center where customer service
representatives contact taxpayers by telephone to resolve
their accounts. If accounts cannot be resolved, these representatives have the authority to issue
levies.
Although Automated Collection System customer service representatives primarily issue levies
systemically, they may also request the issuance of manual levies through the System under
certain circumstances.4 Manual levies require the same advance notification to the taxpayer as
systemic levies. IRS procedures do not require that all manual levies issued by Automated
Collection System customer service representatives be reviewed and approved by a manager
prior to the levies being issued.

Automated Collection System systemic controls are effective
Tests of a judgmental sample5 of 15 levies issued through the Automated Collection System
between October 1, 2011, and September 30, 2012, found that all 15 taxpayers were timely
notified of their appeal rights. Therefore, TIGTA believes that the Automated Collection System
systemic control effectively protected taxpayers’ appeal rights.
Virtually all levies issued by customer service representatives are generated through the
Automated Collection System, which contains a control developed to comply with the IRS
Restructuring and Reform Act of 1998. The control compares the date that the taxpayer was

4
    One example of when a manual levy may be requested is for levies on Individual Retirement Arrangements.
5
    A judgmental sample is a non-statistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 3
                                Fiscal Year 2013 Statutory Review of
                        Compliance With Legal Guidelines When Issuing Levies



notified of the pending levy with the date requested to actually issue the levy. If there are fewer
than 30 calendar days between the dates, the Automated Collection System will not generate a
levy. This control is designed to ensure that taxpayers have been notified of their appeal rights at
least 30 calendar days prior to the issuance of any systemically generated levies.

Automated Collection System manual controls are effective
Our review of a judgmental sample of 30 levies issued manually by Automated Collection
System customer service representatives showed that the IRS timely notified taxpayers of their
appeal rights. TIGTA analyzed the Automated Collection System case history narratives input
by customer service representatives to identify any manual levies issued through the System
between October 1, 2011, and September 30, 2012. Employee numbers and action codes6 were
used as the basis to identify any manual levies issued through the System. All taxpayers were
timely notified of their appeal rights.

Most Levies Issued by the Collection Field Function Complied With
Notification Requirements
Our review of systemically generated and manually issued levies by the Collection Field
function showed that most taxpayers’ rights were protected. The IRS gave taxpayers notice of
their appeal rights for at least 30 calendar days prior to the issuance of the levies, except in some
instances in which a new notice was required to be sent for additional tax assessments included
in the levies.
Many times notices and telephone calls to taxpayers do not successfully resolve delinquent
accounts, and cases have to be assigned to revenue officers in Collection Field function offices
for face-to-face contact with taxpayers. Cases assigned to Collection Field function revenue
officers are controlled on the Integrated Collection System. Revenue officers use the Integrated
Collection System to record collection activity on delinquent cases and to generate enforcement
actions such as levies.
Revenue officers most commonly issue systemic levies through the Integrated Collection
System. However, they are also authorized to issue manual levies on any case as needed.
Because the Integrated Collection System does not control revenue officer-generated manual
levies, it is difficult to reliably determine their exact number. No managerial review or approval
is required when revenue officers issue most manual levies. As a result, TIGTA believes there is
still a high risk associated with manual levies issued by revenue officers.




6
 The action code shows what action was taken, such as a levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                      Page 4
                                 Fiscal Year 2013 Statutory Review of
                         Compliance With Legal Guidelines When Issuing Levies



Integrated Collection System manual controls are effective
Our review showed that all 18 taxpayers sampled received proper notification of their rights.
TIGTA analyzed the Integrated Collection System case history narratives to identify any mention
of a manual levy between October 1, 2011, and September 30, 2012. Because no automated
audit trail is produced for manual levies, i.e., the Master File7 does not have an indicator for
manual levies, analyzing case history comments for any reference to a manual levy is the only
way to identify potential manual levies. Using this methodology, TIGTA identified and
reviewed a judgmental sample of 18 cases in which revenue officers issued manual levies to
seize the monetary assets of taxpayers. All 18 taxpayers received proper notification of their
rights.

Integrated Collection System systemic controls need additional programming
The IRS installed a control in the Integrated Collection System similar to the control in the
Automated Collection System that prevents levies from being issued unless taxpayers have
received 30 calendar days’ notice and have been informed of their appeal rights. If fewer than
30 calendar days have elapsed since the notice of intent to levy date, the Integrated Collection
System will not generate a levy.
TIGTA tested the effectiveness of this control by reviewing a judgmental sample of
27 systemically generated levies issued through the Integrated Collection System between
October 1, 2011, and September 30, 2012. We compared the date of the notice of intent to levy
to the date the levy was issued. For all 27 levies, taxpayers were timely notified of their appeal
rights.
However, the IRS failed to send the taxpayers a new notice of intent to levy as required for three
levies with additional assessments made on a module covered by the levies. The IRS agreed that
these three taxpayers should have been provided a new notice of intent to levy for the additional
assessments prior to the levies being issued and the taxpayer’s rights were potentially violated.
IRS management subsequently took corrective action on all three cases.
In addition, the Integrated Collection System is currently not programmed to prevent levies from
being issued on tax modules when there is an additional assessment and a new notice of intent to
levy is required to be sent to the taxpayer. The revenue officers, in these cases, did not ensure
that a new notice of intent to levy for the additional assessment was sent to the taxpayer before
issuing the levy. IRS management informed us that in Fiscal Year 2013, there will be a
mandatory training course provided for revenue officers that will include instructions for
checking for new assessments in relation to levies.



7
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 5
                            Fiscal Year 2013 Statutory Review of
                    Compliance With Legal Guidelines When Issuing Levies



Recommendation
Recommendation 1: The Director, Collection Policy, Small Business/Self-Employed
Division, should determine the feasibility of updating the Integrated Collection System
programming for systemic levies to prevent levy issuance on modules where an additional
assessment has been made and a new Notice of Intent to Levy/Notice of a Right to a Hearing has
not been sent to the taxpayer.
       Management’s Response: IRS management agreed with the recommendation and
       plans to continue their actions to implement a change to Integrated Collection System
       programming for systemic levies to prevent levy issuance on modules where an
       additional assessment has been made and a new Notice of Intent to Levy/Notice of a
       Right to a Hearing has not been sent to the taxpayer.




                                                                                        Page 6
                                 Fiscal Year 2013 Statutory Review of
                         Compliance With Legal Guidelines When Issuing Levies



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has complied with
26 U.S.C. Section (§) 6330, Notice and Opportunity for Hearing Before Levy.1 To accomplish
our objective, we:
I.       Determined whether manual levies issued by both revenue officers and Automated
         Collection System2 function customer service representatives complied with legal
         guidelines in 26 U.S.C. § 6330.
         A. Identified any references to manual levies issued between October 1, 2011, and
            September 30, 2012, by querying the history narrative text field of the Integrated
            Collection System3 open case inventories. We identified 353 potential manual levies
            and reviewed a judgmental4 sample of 30 potential manual levies from the open
            Integrated Collection System cases. We used judgmental sampling because we could
            not identify the population of manual levies issued. During the course of our audit,
            we reclassified 12 cases as systemic Integrated Collection System levies, which
            increased the systemic sample by 12 cases (for a total of 27) and decreased the
            manual levy sample by 12 cases (for a total of 18).
         B. Selected a judgmental sample of 30 manual levies from 387,467 potential
            employee-requested levies on the Automated Collection System between
            October 1, 2011, and September 30, 2012. We used judgmental sampling because we
            could not identify the population of manual levies issued. We used the employee and
            action codes5 on the Automated Collection System to identify the manual levies.
         C. Requested and analyzed case histories for all cases containing references to manual
            levies identified in Steps I.A. and I.B.



1
  26 U.S.C. § 6330 (Supp. IV 2010) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134,
115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
3
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the field offices.
4
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
5
  The action code shows what action was taken, such as a levy. The employee code shows whether there was a
system-generated action or an employee-generated action.
                                                                                                             Page 7
                                 Fiscal Year 2013 Statutory Review of
                         Compliance With Legal Guidelines When Issuing Levies



        D. Reviewed case history documentation and identified whether a revenue officer or an
           Automated Collection System function customer service representative had issued a
           manual levy.
        E. Analyzed Master File6 transcripts and Automated Collection System and Integrated
           Collection System case histories to determine whether taxpayers were provided at
           least 30 calendar days’ notice prior to any levy actions initiated by the IRS. We also
           verified that if more than 180 days had passed from the date of the notice to the date
           of the levy that a Warning of Enforcement Action was issued within 180 days prior to
           the date of the levy. As part of this analysis, we checked to see if any additional
           assessments were made on the modules covered by the levy after the taxpayer was
           given notice but before the levy was issued. If there was an additional assessment,
           we determined whether the taxpayer received a new notice.
        F. Validated the manual levy data from the Automated Collection System and Integrated
           Collection System by relying on TIGTA Data Center Warehouse site procedures that
           ensure that data received from the IRS are valid. The Data Center Warehouse
           performs various procedures to ensure that it receives all the records in the
           Automated Collection System, Integrated Collection System, and IRS databases. In
           addition, we scanned the data for reasonableness and are satisfied that the data are
           sufficient, complete, and relevant to the review. All the levies identified are in the
           appropriate period, and the data appeared to be logical.
II.     Determined whether the IRS maintains sufficient automated controls and procedures to
        ensure that taxpayers are advised of their right to a hearing at least 30 calendar days prior
        to any levy action by testing systemically generated levies.
        A. Selected a judgmental sample of 15 Automated Collection System levies from an
           approximate population of 732,111 levies and 15 Integrated Collection System levies
           from an approximate population of 527,277 levies issued between October 1, 2011,
           and September 30, 2012, from the Automated Collection System and Integrated
           Collection System databases of open cases maintained in the TIGTA Data Center
           Warehouse.7 Because we reclassified 12 of our potential manual Integrated
           Collection System case levies as systemic, the Integrated Collection System systemic
           levy sample increased from 15 levies to 27 levies.
             We have previously tested systemic controls on both systems to determine if they will
             allow employees to issue a levy less than 30 days after the notice request date.
             Results showed that neither system allows the employees to issue a levy less than


6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
7
  A centralized storage and administration of files that provides data and data access services of IRS data.
                                                                                                            Page 8
                             Fiscal Year 2013 Statutory Review of
                     Compliance With Legal Guidelines When Issuing Levies



           30 days after the notice request date. Since these controls were put in place, testing
           each year has been limited to a judgmental sample of levies. Because again this year
           we did not anticipate finding any errors and the controls are strong, we did not use
           statistical sampling.
       B. Analyzed Master File transcripts and case histories as necessary to verify that
          taxpayers were advised of their right to a hearing at least 30 calendar days prior to
          any levy action. We also verified that if more than 180 days had passed from the date
          of the notice to the date of the levy that a Warning of Enforcement Action was issued
          within 180 days prior to the date of the levy. As part of this analysis, we checked to
          see if any additional assessments were made on the modules covered by the levy after
          the taxpayer was given notice but before the levy was issued. If there was an
          additional assessment, we determined whether the taxpayer received a new notice.
       C. Validated the systemic levy data from the Automated Collection System and the
          Integrated Collection System by relying on TIGTA Data Center Warehouse site
          procedures that ensure that data received from the IRS are valid. The Data Center
          Warehouse performs various procedures to ensure that it receives all the records in
          the Automated Collection System, Integrated Collection System, and IRS databases.
          In addition, we scanned the data for reasonableness and are satisfied that the data are
          sufficient, complete, and relevant to the review. All the levies identified are in the
          appropriate period, and the data appeared to be logical.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s automated controls in place that prevent the issuance of levies
prior to 30 calendar days before initiating any levy action and managerial reviews. We evaluated
these controls by reviewing samples of levy cases.




                                                                                           Page 9
                            Fiscal Year 2013 Statutory Review of
                    Compliance With Legal Guidelines When Issuing Levies



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Tim Greiner, Acting Director
Glen Rhoades, Acting Director
Phyllis Heald London, Audit Manager
Beverly Tamanaha, Acting Audit Manager
Nicole DeBernardi, Lead Auditor
Janis Zuika, Senior Auditor




                                                                                    Page 10
                            Fiscal Year 2013 Statutory Review of
                    Compliance With Legal Guidelines When Issuing Levies



                                                                           Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 11
                             Fiscal Year 2013 Statutory Review of
                     Compliance With Legal Guidelines When Issuing Levies



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; three taxpayer accounts affected (see page 4).

Methodology Used to Measure the Reported Benefit:
From a judgmental sample of 27 systemically generated levies issued through the Integrated
Collection System between October 1, 2011, and September 30, 2012, we identified three cases
in which an additional assessment was made on a module covered by the levy, and the IRS failed
to send the taxpayer a new final notification letter for the additional assessment before issuing
the levy. The IRS agreed that these three taxpayers should have been provided a new notice of
intent to levy for the additional assessments prior to the levies being issued, and the taxpayers’
rights were potentially violated.




                                                                                          Page 12
        Fiscal Year 2013 Statutory Review of
Compliance With Legal Guidelines When Issuing Levies



                                             Appendix V

Example of Levy (Form 668-A)




                                                   Page 13
                            Fiscal Year 2013 Statutory Review of
                    Compliance With Legal Guidelines When Issuing Levies



                                                                             Appendix VI

            Previous Audit Reports Related to This
                      Statutory Review

TIGTA, Ref. No. 1999-10-071, The Internal Revenue Service Has Not Fully Implemented
Procedures to Notify Taxpayers Before Taking Their Funds for Payment of Tax (Sept. 1999).
TIGTA, Ref. No. 2000-10-150, The Internal Revenue Service Has Significantly Improved Its
Compliance With Levy Requirements (Sept. 2000).
TIGTA, Ref. No. 2001-10-113, The Internal Revenue Service Complied With Levy Requirements
(Jul. 2001).
TIGTA, Ref. No. 2002-40-176, The Internal Revenue Service Has Improved Controls Over the
Issuance of Levies, But More Should Be Done (Sept. 2002).
TIGTA, Ref. No. 2003-40-129, The Internal Revenue Service Does Not Have Controls Over
Manual Levies to Protect the Rights of Taxpayers (Jun. 2003).
TIGTA, Ref. No. 2004-30-094, Additional Efforts Are Needed to Ensure Taxpayer Rights Are
Protected When Manual Levies Are Issued (Apr. 2004).
TIGTA, Ref. No. 2005-30-072, Taxpayer Rights Are Being Protected When Levies Are Issued
(Jun. 2005).
TIGTA, Ref. No. 2006-30-101, Fiscal Year 2006 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Aug. 2006).
TIGTA, Ref. No. 2007-30-070, Fiscal Year 2007 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Apr. 2007).
TIGTA, Ref. No. 2008-30-097, Fiscal Year 2008 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Apr. 2008).
TIGTA, Ref. No. 2009-30-070, Fiscal Year 2009 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (May 2009).
TIGTA, Ref. No. 2010-30-068, Fiscal Year 2010 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Jun. 2010).
TIGTA, Ref. No. 2011-30-036, Fiscal Year 2011 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Mar. 2011).



                                                                                     Page 14
                           Fiscal Year 2013 Statutory Review of
                   Compliance With Legal Guidelines When Issuing Levies



TIGTA, Ref. No. 2012-30-095, Fiscal Year 2012 Statutory Review of Compliance With Legal
Guidelines When Issuing Levies (Aug. 2012).




                                                                                   Page 15
              Fiscal Year 2013 Statutory Review of
      Compliance With Legal Guidelines When Issuing Levies



                                                 Appendix VII

Management’s Response to the Draft Report




                                                         Page 16
        Fiscal Year 2013 Statutory Review of
Compliance With Legal Guidelines When Issuing Levies




                                                              




                                                   Page 17
